No.

-

IN THE SUPREME COURT OF THE UNITED STATES
CLINTON RUMLEY,
Petitioner,
V.

UNITED STATES

OF

AMERICA,

Respondent.

PROOF OF SERVICE
I, Lisa M. Lorish, Assistant Federal Defender, do declare that on this date
September 15, 2020, as required by Supreme Court Rule 29, I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that party’s counsel,
and on every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days.
The names and addresses of those served are as follows:

Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 15, 2020.
Respectfully submitted,

Clinton Rumley
By Counsel
/s/ Lisa M. Lorish
Lisa M. Lorish
Counsel for Petitioner
Assistant Federal Public Defender
401 E. Market Street, Suite 106
Charlottesville, VA 22902
(434) 220-3388
Lisa_Lorish@fd.org

